2311 Douglas Street
Omaha, Nebraska68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-71
FNU TANZIN, ET AL.,
Petitioners,
v.

MUHAMMAD TANVIR, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.l(h), I certify that the BRIEF FOR THE
INSTITUTE FOR JUSTICE AS AMICUS CURIAE SUPPORTING RESPONDENTS in the above
entitled case complies with the typeface requirement of Supreme Comi Rule 33.l(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 5929 words, excluding the parts that are exempted by Supreme Comi Rule 33. I (d),
as needed.

Subscribed and sworn to before me this 12th day of February, 2020.
I am duly authorized under the laws of the State of\.lebraska to administer oaths.
PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

Notary Public

Affiant

39347

